WAIVER
SUPREME COURT OF THE UNITED STATES

Supreme Court, U.S.
FILED

SEP 1 5 2021
OFFICE OF THE CLERK

No
. 21-5384
William A. Masters

Rob Bonta, Attorney General of California

(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE 'A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
0

I am filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
0

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

0

I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).

Signature:

Lara Haddad

Date:

09/13/2021

(Type or print) Name

Lara Haddad
0 Mr.

Firm

Digitally signed by Lara Haddad
Date: 2021,09.13 10:54:20 -07'00'

0 Ms.

0 Mrs.

0 Miss

California Department of Justice

SEP 1 6 2021

Address

300 South Spring Street, Suite 1702

City & State

Los Angeles

Phone

213-269-6250

RECEIVED
OFFICE OF THE CLERK
SUPREME COURT, U.S.

Zip 90013
Email

Lara.Haddad@doj.ca.gov

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
William A. Masters, II
cc:

DECLARATION OF SERVICE BY U.S. MAIL
Case Name: Masters, William v. Rob Bonta, Attorney General of California
Case No.:
21-5384
I declare:
I am employed in the Office of the Attorney General, which is the office of a member of the
California State Bar, at which member's direction this service is made. I am 18 years of age or
older and not a party to this matter. I am familiar with the business practice at the Office of the
Attorney General for collection and processing of correspondence for mailing with the United
States Postal Service. In accordance with that practice, correspondence placed in the internal
mail collection system at the Office of the.Attorney General is deposited with the United States
Postal Service with postage thereon fully prepaid that same day in the ordinary course of
business.
On September 14, 2021, I served the attached WAIVER SUPREME COURT OF THE
UNITED STATES by placing a true copy thereof enclosed in a sealed envelope in the internal
mail collection system at the Office of the Attorney General at 300 South Spring Street, Suite
1702, Los Angeles, CA 90013, addressed as follows:
William A. Masters, II
18929 Vanowen St.
Reseda, CA 91335
In Pro Per

I declare under penalty of perjury under the laws of the State of California and the United States
of America the foregoing is true and correct and that this declaration was executed on September
14, 2021, at Los Angeles, California.

Beth L. Gratz
Declarant
SA2019103399

64535982.docx

Signal:a-23r

